=?3®9

r~

IN THE SUPREME COURT.
OF THE UNITED STATES

I

IJ

FILED
JAN 1 3 2021
OFFICE OF THE CLERK
SUPREME COURT hr*

PHILLIP MALDONADO/

Petitioner

:

C.A. NO.

y.
COMiA.ON|/eALTH OF PENNSYLVANIA/

:

Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF PENNSYLVANIA

PETITION FOR WRIT OF CERTIORARI

Phillip Maldonado
#LZ-1993
209 Institution Dr.
P.O. Box 1000
Houtzdale/ PA 16698

RECEIVED
JAN 2 2 2021
9nsaX23&8fiiL

I

QUESTION PRESENTED

I. DOES THE FEDERAL CONSTITUTION'S ARTICLE VI/ CLAUSE 2
SUPREMACY CLAUSE PRESCRIBE A RULE OF DECISION UNDER
INTERPRETATION OF THE SIXTH AMENDMENT PER STRICKLAND
V. WASHINGTON/ 466 U.S. 668 (1984) MANDATING STATE
COURTS TO APPLY/ ON DIRECT APPEAL AND COLLATERAL
REVIEW, THE TWO-PRONG, REASONABLENESS/PREJUDICE,

I

REASONABLE PROBABILITY/RESULT-DETERMINATIVE TEST AND
STANDARDS TO IAC CLAIMS, AND ARE PETITIONER'S DUE
PROCESS AND EQUAL PROTECTION RIGHTS UNDER THE FIFTH
AND FOURTEENTH AMENDMENTS AND/OR ARTICLE IV
PRIVILEGES AND IMMUNITIES CLAUSE VIOLATED BY,
RESPONDENTS' MORE RESTRICTIVE THREE-PRONG ARGUABLE
MERIT/REASONABLENESS/PREJUDICE, BY A PREPONDERANCE
OF THE EVIDENCE AND OUTCOME-DETERMINATIVE IAC TEST
AND STANDARDS, SUCH THAT ALL OTHER SUBSTANTIAL AND
SUBSTANTIVE FOURTH, SIXTH, TENTH, AND FOURTEENTH
AMENDMENT CLAIMS ADJUDICATED ON THE MERITS UNDER THE
RUBRIC OF COUNSELS' INEFFECTIVENESS ARE IN CONFLICT
WITH THE SUPREME LAW OF THE LAND UNDER STRICKLAND?

IN THE SUPREME COURT
OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

:

Petitioner respectfully prays that a writ of certiorari
issue to review the judgment* bflow.

OPINION BELOW
The opinion of the highest state court to review the
merits/ incorporating the state collateral-review
court's factual/ procedural/ and legal findings denying
relief under state habeas corpus/Post Conviction Relief
Act relief/ 42 Pa.C.S. Section 9541 et seq • / and
affirmed by the Pennsylvania Superior Court at
Appendix "A" to the petition and is
[X] reported at Commonwealth v. Phillip Maldonado/ No.
83 MDA 2020/ J-s22044-20 (Pa. Super. 2020).
The opinion of the highest court of the state in which
a decision could be had denied discretionary review/
and is attached at Appendix "B"/ and is
[X] docketed at Commonwealth v. Phillip Maldonado/ No.
402 MAL 2020.

JURISDICTION
[X] For cases from state courts:
The date on which the highest state court decided
Petitioner's case was December 2, 2020. A copy of that

!

1

■N

opi^coa appears at Appendix "B".
The jurisdiction of this Court is invoked under 28
9

U/i'S.C. Section 1257(a).
/

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
FOURTli AMENDMENT
SIXTH'AMENDMENT
TENTH AMENDMENT
FOURTEENTH AMENDMENT
POST CONVICTION RELIEF ACT/ 42 Pa.C.S. Sec. 9541 et esq.

STATEMENT OF CASE
Excepting out the allegation that Petitioner ever sold
herion to the victim at any time/ Petitioner incorporates
herein the Statement of the Case as summarized by the state
court's opinion at Appendix "A"/ pg. 1-10.

REASONS FOR GRANTING THE PETITION
Pursuant to Supreme Court Rules/ Rule 10(b) and 10(c)/
Petitioner avers certiorari should issue where the state
courts have decided an important question of federal law
that has not been/ but should be/ settled by this Court/
and/or in a way that conflicts with clearly established
decisions of this Court.
Particulary/ the state courts have determined and
denied Petitioner's Sixth Amendment counsel ineffectiveness
claims in a way that conflicts the clearly established
federal law of Strickland v. Washington/ 466 u.S. 668

2

(1984). Also/ the question presented concerning the lawful
standards governing IAC claims under Strickland are claims
r~
that obviously need to be clarified/ reaffirmed and/or other
settled by this Court.
Specifically/ Respondent's state law IAC-standard/
contrary to Strickland/ employs a more restrictive
three-prong/ see Appendix "A"/ pg. 12 (citing Commonwealth
v. Medina/ 209 A.3d 992/ 1000 (Pa. Super. 2019)(arguable
merit/ reasonableness/ prejudice))/ preponderance of the
evidence/ see 42 Pa.C.S. Section 9543(a)("To be eligible for
relief[/] • • • / the petitioner must plead and prove the
following b^ a^ preponderance of the evidence all of the
following:)/ and an out-come determinative prejudice test.
See/ e.g. Appendix "A"/ pg. 20 ( • • • Appellant cannot show
that there is a reasonable probability of a different
outcome and/ hence/ cannot demonstrate prejudice.").
The supreme Law of the Land of Strickland appears to
have unequivocally and clearly established a less
restrictive two-prong/ reasonable probabilty/
result-determinative IAC; — expressly rejecting the
"outcome determinative" and "by a preponderance of the
evidence" standard.
In Weaver v. Massachusetts/ 137 S.Ct. 1899/ 198 L.Ed.2d
420 (2017)/ this Court "assumed" "under a proper
interpretation of Strickland/ even if there is no showing of
a reasonable probability of a different outcome/ relief
still must be granted if the convicted person shows that
attorney errors rendered the trial fundamentally unfair."
Id./ at 435.
Most recently in Andrus v. Texas/ 590 u.S.
(2020),
this Court vacated and remanded to a state court of Criminal

3

\

Appeals because this Court was uncertain if the Estate
appellate court applied the correct Strickland-standard for
reasonableness/ prejudice/ or for neither, Petitioner will
assert on certiorari that Respondents' state courts and PCRA
IAC-standards/ like the state court in Andrus § has a
requirement "to meet [the] burden under Strickland []/
[Petitioner must] show b£ a preponderance of the evidence
that his counsel's representation fell below an objective
standard of reasonableness and that [by a preponderance of
the evidence] there was a reasonable probability that the
[outcome] of the proceeding would have been different/ but
for counsel's deficient performance." Andrus/ 590 u.S • t
(AlitO/ J • / dissenting opinion)(si. op • / at *1).
pecause state law generally requires that trial/direct
appeal counsel IAC claims be deffered until PCRA' state
collateral/habeas corpus review/ each of the determinations
of substantial and substantive Fourth/ Sixth/ Tenth/ and
Fourteenth Amendment violations/ as caused by counsel's
deficient performance/ have been undermined by the taint of
Respondents' more restrictive and less protective state
decisional and statutory laws governing IAC claims; thus/
depriving Petitioner of a full/ fair/ and meaningingful
opportunity to be .heard by state judges who/ under these
facts of their holdings on trial counsel's ineffectiveness/
cannot be "presumed to know [or follow] the law.^' Andrus/
I
590 uls • / (si. op • / at *17/ n.5)(per curiam)(citing and
quoting Lambrix v. Singletary/ 520 U.S. 518/ 532/ n. 4
(1997).
l
t

!

I
' CONCLUSION

l

!

i

The petition for certiorari should be granted*

t
j

i

/

*

Respectfully/
Phillip Maluonado
#LZ-1993
209 Institution Dr.
P.O. Box 1000
Houtzdale/ PA 16698
DATED: ^Ja^uary 4/ 2021

5

%

